July 21, 2008

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Engineering Investment Portfolio Measurement
         (Report Number DA-AR-08-007)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
Investment Portfolio Measurement (Project Number 08YG004DA000). Our objective was
to assess Engineering’s capability to report on program performance as required for
tollgate briefings and investment highlights. This included evaluating metric development,
ownership, and measurement systems and overall information quality for Engineering
programs approved in fiscal years (FY) 2006 and 2007. Click here to go to Appendix A for
additional information about this audit.

Reporting Engineering Program Performance

Postal Service Engineering routinely uses system data to test, measure, and report on
program performance as required for tollgate briefings and investment highlights.
However, Engineering can improve its reporting capability by including additional input
from operational users. Although Engineering developed metrics for the programs we
reviewed, these metrics could be more comprehensive to better attribute operational
impact to Engineering programs. In addition, ownership of operational performance
metrics could be assigned to operational units to reduce reporting control risks.
Engineering is currently responsible for defining, measuring, and reporting on both
technical and operational metrics. Consequently, some may not always perceive
Engineering as completely objective when it reports on whether programs successfully
satisfy performance requirements. Click here to go to Appendix B for our detailed analysis
of this issue.

We recommend the Vice President, Engineering:

   1. Seek greater participation from Operations when developing and reporting on
      operational performance metrics.

   2. Seek greater separation of responsibilities for reporting on program metrics.
Engineering Investment Portfolio Measurement                                  DA-AR-08-007



Management’s Comments

Management agreed with the finding and recommendations. In response to
recommendation 1, Engineering stated they will provide this report to the relevant
Operations and Finance organizations. This will reinforce the practice of having the
organizations thoroughly review the performance metrics included in Decision Analysis
Reports (DARs) during the validation period. Additionally, Engineering will seek greater
participation from the appropriate Operations groups when developing operational
performance metrics.

To address recommendation 2, Engineering indicated they will continue to fulfill their
responsibilities as required by Handbook F-66. However, Engineering is not the owner of
the post-DAR reporting process; therefore, management will provide this report to the
appropriate Finance group to inform them of the desired improvement.

Click here to go to Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the corrective actions should resolve
the issues identified in the report. The OIG considers both recommendations significant,
and therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Engineering, or
me at (703) 248-2100.

 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:    Harold G. Walker
       Anthony Mazzei
       Anthony Pajunas
       David E. Williams
       Thomas Shipe
       Katherine S. Banks



                                               2
Engineering Investment Portfolio Measurement                                                          DA-AR-08-007



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service had 32 active projects representing total authorized funding of
approximately $6.9 billion, as of the fourth quarter of FY 2007. The investment in mail
processing equipment portfolio represented 69 percent of the projects, and accounted for
88 percent of the approved capital investment.

The capital budget for investments is formulated to support implementation of the 5-Year
Strategic Plan, as well as the performance goals for a given fiscal year. The Postal
Service uses investment portfolio measurement to get feedback on projects through each
phase of development and inform the organization of its success in meeting these goals.

The primary criteria that address investment portfolio measurement are Handbooks F-66
and F-66B.1 These handbooks provide procedures to ensure major equipment
investments support the strategic objectives of the Postal Service, make the best use of
available resources, and establish management accountability for investment decisions.
Major program performance results are reported quarterly in the Investment Highlights
Report.

The requirements of the above guidelines are carried out using the following processes:

      •    Establish/Deploy/Implement/Review processes (i.e., budget process)
      •    Capital Investment Committee (CIC) Tollgate Review
      •    Compliance Reporting
      •    Investment Highlights Reports
      •    Interim Studies
      •    Cost Studies

The process for developing metrics consists of six steps:

      •    Identify the source(s) of savings in the DAR.

      •    Select and develop metrics that have a direct relationship with the source of the
           savings.

      •    Gain consensus with stakeholders (e.g., Operations, Engineering, Finance,
           Marketing, and Human Resources).

      •    Identify the data collection activity that will be required — existing or new.

      •    Identify the database and systems where the report metrics will be retained and
           incorporate the metrics into the DAR.
1
    F-66, General Investment Policies; F-66B, Investment Policies and Procedures – Major Equipment.



                                                            3
Engineering Investment Portfolio Measurement                                      DA-AR-08-007




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess Engineering’s capability to report on program performance as
required for tollgate briefings and investment highlights. We evaluated metric
development, ownership, and measurement systems and information quality for
Engineering programs approved in FYs 2006 and 2007.2

The programs analyzed allowed us to assess critical aspects of investment portfolio
management, specifically project performance metrics and the methodology for measuring
those metrics. We also assessed the assignment of responsibility for tracking and
reporting on those metrics.

The following table presents the programs we reviewed for this audit.

                                       Capital Investment Projects
                          Intelligent Mail Data Acquisition System (IMDAS)
                          Carrier Route Vehicles
                          Distribution Quality Improvement Program
                          Flats Sequencing System, Phase I
                          Additional Delivery Bar Code Sorters (DBCS 6) and
                          Stacker Modules

We assessed the process of metric development for DARs. For each sample project, we
determined the party responsible for monitoring and reporting each aspect of project
performance in view of those metrics. Subsequently, we reviewed the tollgate briefings
and the Investment Highlights Report for each of the projects to gauge the effectiveness of
the measures decision makers use.

We conducted this performance audit from November 2007 through July 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on June 16, 2008, and included their
comments where appropriate.




2
    Projects approved in 2006 and later were subject to CIC tollgate briefings.



                                                               4
Engineering Investment Portfolio Measurement                                       DA-AR-08-007



PRIOR AUDIT COVERAGE

We identified one prior OIG audit and a Government Accountability Office (GAO)
testimony related to the objective of this audit.

                        Report          Final Report    Monetary
  Report Title         Number               Date         Impact             Report Results
Management           MS-AR-07-003     August 21, 2007   None       We identified three system-wide
Operating Data                                                     internal controls that can be
System                                                             improved:

                                                                   •   Policies, procedures, and
                                                                       on-line training materials
                                                                       were outdated.
                                                                   • Volume and work hour
                                                                       errors were not corrected.
                                                                   • Reviews were not
                                                                       performed annually.
Information          GAO-07-          September 20,     None       Congressional testimony on
Technology:          1211T            2007                         projects that were not well
Further                                                            planned, not well performed, or
Improvements                                                       both.
Needed to Identify
and Oversee
Poorly Planned
and Performing
Projects




                                                  5
Engineering Investment Portfolio Measurement                                                       DA-AR-08-007




                                 APPENDIX B: DETAILED ANALYSIS

Comprehensive Program Measures Needed

In reporting program impact, performance metrics could be improved with more
comprehensive information from Postal Service Operations, specifically for operational
performance metrics.

As depicted in Appendix C, four of the five projects we reviewed had not established a
comprehensive program performance reporting methodology that covered metric
development, ownership, measurement systems, and information quality. The IMDAS
program covered all these areas, while the others covered some of these areas.

Three3 of the four projects without a comprehensive methodology could have expanded
metrics to fully capture savings. These programs relied on either workhour reductions or
machine performance metrics to justify the program, but could have taken the added step
to associate savings directly with complement impact. This condition is generally true for
generative Engineering capital investments. Identifying and reporting on complement
impact by deployment site would help ensure operational workhour reductions are
captured as planned and reduce the risk of workhours merely being shifted to other
functions, and therefore not saved.

Lastly, one program’s metrics focused solely on schedule and costs though there was an
opportunity to also measure fuel savings. Specifically, the Carrier Route Vehicle Program
could have captured flex fuel metrics as the vehicles purchased had this capability.

Postal Service investment policies4 recognize that the success of a program needs to be
measured, and that performance metrics will be used to monitor performance throughout
all phases of the program. While the policies call for one metric for each valid
requirement, such as workhours, they also recognize:

    •   The need to have a direct relationship to the source(s) of savings articulated in the
        DAR.

    •   The need to use other functionally based systems to provide the depth of
        information required to meet all DAR compliance reporting and program
        performance tracking requirements as necessary.




3
 Flats Sequencing System, Distribution Quality Improvement Program, and Delivery Bar Code Sorters 6.
4
 F-66, General Investment Policies, 3-3.2.2 and 4-6; F-66B, Investment Policies and Procedures – Major Equipment, 2-
6.13.



                                                          6
Engineering Investment Portfolio Measurement                                                     DA-AR-08-007



Reporting Responsibility Can Be Shared

Postal Service Engineering can also improve its capability for reporting program
performance if responsibility was shared to reduce reporting control risks. Currently,
Engineering owns the responsibility for independently defining, measuring, and reporting
on program successes. This is true for programs reviewed and performance information
reported in tollgate briefings and the Investment Highlights Report. In fact, for three of the
five projects, Engineering was responsible for reporting non-technical measures, such as
workhours.

Benchmarks5 indicate using a multidisciplinary team with functional skills in financial
management, engineering, acquisitions, scheduling, mathematics, and communications,
along with participants from operations, is a best practice when baselining cost savings
and analyzing performance. Centralizing the team allows for more effective deployment of
technical and business skills while ensuring some measure of independence.

Applying this concept to Postal Service Operations rather than Engineering is best suited
for decisions that influence workhour declines. Since some decisions are non-program
related, such as labor scheduling to address volume declines, Operations is in a better
position to report on non-technical metrics.

We recognize Engineering decisions impact technical requirements such as machine
throughputs, rejects, and availability that enable Operations to reduce workhours and
complements, accordingly. However, sharing reporting responsibilities would allow the
Postal Service to capitalize on functional strengths in satisfying reporting requirements and
enhance the perception of objectivity when Engineering reports on program performance
at tollgate briefings and in the Investment Highlights Report. In addition, each functional
area could attribute program decisions to measured outcomes where they have direct
responsibility.

We also recognize that current Postal Service investment policies6 rest program reporting
responsibilities with the sponsoring organization. However, Postal Service investment
policies are not clear when these responsibilities are shared or pertain to multiple
sponsors.

Information Quality

We noted that the Postal Service mail processing systems continuously collect machine
data to routinely measure investment performance. For the programs reviewed,
management was skilled in using available data sources to measure program
performance. In addition, Engineering maintained an organization dedicated to program
testing and quality assurance.


5
  Cost Assessment Guide, Best Practice for Estimating and Managing Program Costs (Exposure Draft),
  GAO-07-1134SP, Chapter 6, dated July 2007.
6
  F-66B, Investment Policies and Procedures, Major Equipment, Chapter 6.



                                                        7
Engineering Investment Portfolio Measurement                               DA-AR-08-007



As it pertains to operational data, in August 2007, we reported that Management Operating
Data System (MODS) internal controls were generally effective at the seven mail
processing facilities we audited. Additionally, MODS data was valid and reliable at these
facilities when used to assess overall plant efficiency. However, MODS internal controls
were not effective in ensuring that volume and workhour data recorded against MODS
operation numbers were reliable. For the programs we reviewed that were justified based
on workhour reductions, we did not take issue with data quality as approved reductions
were summarized at the plant level.




                                               8
     Engineering Investment Portfolio Measurement                                                                DA-AR-08-007



                                                APPENDIX C: RESULTS ANALYSIS TABLE

                                              SUMMARY TABLE OF AUDIT RESULTS
                                                  METRIC
              PROGRAM                         DEVELOPMENT            METRIC OWNERSHIP                         AUDIT COMMENTS
Characterization of Performance            Measure complete   Was metric responsibility assigned
Metrics                                    and reasonable?    to appropriate organization?



Intelligent Mail Data Acquisition System
Project-related performance metrics                 Yes                      Yes
Cost Savings-related performance metrics            Yes                      Yes

Carrier Route Vehicles Program (5,856)

Project-related performance metrics                 No                       Yes                   Flex fuel metrics not developed
Cost Savings-related performance metrics            N/A                      N/A                   Non-Generative DAR

Flats Sequencing System, Phase 1

Project-related performance metrics                                                                FSS metrics will be monitored after First
                                                    Yes                      N/A                   Article Testing
Cost Savings-related performance metrics            No                       No                    Reduction in staffing complement not made

Additional Delivery Bar Code Sorters
and Stacker Modules
Project-related performance metrics                 Yes                      Yes
Cost Savings-related performance metrics            No                       No                    Reduction in staffing complement not made

Distribution Quality Improvement
Program
Project-related performance metrics                 Yes                      Yes
Cost Savings-related performance metrics            No                       No                    Reduction in staffing complement not made




                                                                   9
Engineering Investment Portfolio Measurement

                                                            DA-AR-08-007



                        APPENDIX D. MANAGEMENT’S COMMENTS




                                               10
Engineering Investment Portfolio Measurement        DA-AR-08-007




                                               11
